CERTIFICATE OF COMPLIANCE
No.
Yao Pone,
Petitioner
V.
Board of County Commissioners for Calvert
County.
Respondent

As required by Supreme Court Rule 33.1(h), I certify that
the petition for a writ of certiorari contains /S
words, excluding the parts of petition that are exempted by
Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is
true and correct.
Executed on

, 202J

__ Date _l_
Yao Pone
683 Gunsmoke Trl
Lusby, MD 20657
240-256-0203

Certification of Word Count and Compliance with Maryland
rule 8 -112.

